In the Supreme Court of the United States
NO:
TAMMY NOERGAARD
Petitioner,
vs.
CHRISTIAN NOERGAARD,
Respondent.
CERTIFICATE OF SERVICE
I, Kenneth Knudsen, hereby certify that on this 31st
day of March, 2021,1 served three copies of the Writ
of Certiorari and Appendix by overnight FEDEX
delivery on the following:
Stephen Ruben, Esq.
RUBEN LAW FIRM
625 Market St, Penthouse
San Francisco, CA 94105
Phone: (415) 399-6830,
Email: sruben@rubenlawfirm.com
I further certify that all parties required to be served
have been served.

Kenneth Knudsen
8583 Irvine Center Drive, Suite 312
Irvine, CA 92618
Phone: 949-975-9401
Email: securescanner@yahoo.com

